No. 20IN THE
Supreme Court of the United States

EZRALEE J. KELLEY,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

Motion for Leave to Proceed In Forma Pauperis

Petitioner Ezralee Kelley seeks leave to file the attached Petition for a Writ
of Certiorari to the United States Court of Appeals for the Ninth Circuit without
prepayment of fees or costs and to proceed in forma pauperis.
Petitioner was represented on appeal by the Federal Defenders of Eastern
Washington and Idaho, counsel appointed pursuant to 18 U.S.C. ยง 3006A, and is
presently represented by undersigned counsel pursuant to the Criminal Justice Act.
Counsel for petitioner is a member of the Bar of this Court.

1

Dated: March 15, 2021

MATTHEW CAMPBELL
Counsel of Record
FEDERAL PUBLIC DEFENDER
U.S. VIRGIN ISLANDS
1336 Beltjen Rd.
Suite 202
St. Thomas, USVI 00802
(340) 774-4449
Matt_Campbell@fd.org

2

